            I

        I

                                                               u.s. OFFICE OF PERSONNEL MANAGEMENT                                                            C




                                                                                     OFFICE OF THE INSPECTOR GENERAL
                                                                                                      OFFICEOFAUDI1S




                                           Fin:alAudit Report·
                                                .   -'.:
                                                                                                                        . :".   ~:.       ..



                                                               ,'"    ,,:                       '.: ..




                 Subject:.   · ....... AU])ITOF            IN~ORMATION SYSTEMS .•. 
                                                                                                                   .   .   ~   ..'




                                                                                                                                                                  ....            ::"          "


                                                                                                                                                              •          "   .........;.'.!: . • . •




                                                                     . '~   -   .
                                                                     ,      '    .




                                                                                                            .~ ..   .
.~~..                                                                                                                                 ;
                                                                                                                                           ~   . I   .•
                                                                                                                                                          "
                                               '.          "




                                               .•."Dat~: . .                         ..,November 28,2008.




                                                                            --CAU1'ION-­
                 This .audit teporthas been di$tribut~dto Federal:iJ)dNoil-Fe~era]o(fichils who are responsible for the
                 administration of the audhedconiraci This audit report may contain pnjprietary data whicb is protected by
                 }?cderallaW (18 U.S.C.1905);theref(,re~ whiletbis auditreportis availaMe u:ndertlie Freedom ofInformation .
                 Act~ caution needs to be exercised before releasing the report to the general public.
                        UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                        Washington, DC 20415


   Office of the
Inspector General




                                        Audit Report 



                     FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM 

                                  CONTRACT CS 1039 

                       CAREFIRST BLUECROSS BLUESHIELD AND THE 

                    FEDERAL EMPLOYEES PROGRAM OPERATIONS CENTER 

                                  PLAN CODES 2001700 

                                    WASHINGTON, D.C. 





                                Report No. lA-10-92-08-021

                                Date:         November 28, 2008




                                                               Michael R. Esser
                                                               Assistant Inspector General
                                                                 for Audits


        www.opm.gov                                                             www.usajobs.gov
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                Washington, DC 20415


   Office of the
Inspector General




                                           Executive Summary


                     FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM 

                                  CONTRACT CS 1039 

                       CAREFIRST BLUECROSS BLUESHIELD AND THE 

                    FEDERAL EMPLOYEES PROGRAM OPERATIONS CENTER 

                                  PLAN CODES 200/700 

                                           WASHINGTON, D.C. 





                                       Report No. lA-10-92-08-021

                                       Date:          November 28, 2008

        This final report discusses the results of our audit of general and application controls over the
        information systems at CareFirst BlueCross BlueShield (CareFirst) and the BlueCross
        BlueShield Association's (BCBSA) Federal Employees Program Operations Center (FEPOC).

       Our audit focused on the claims processing applications used to adjudicate Federal Employees
       Health Benefits Program (FEHBP) claims for CareFirstlFEPOC, as well as the various processes
       and information technology (IT) systems used to support these applications. We documented
       controls in place and opportunities for improvement in each of the areas below.

        Entity-wide Security Program
        CareFirst and the FEPOC have established a comprehensive series of IT policies and procedures
        to create an awareness of IT security at the Plan. CareFirst and the FEPOC have also
        implemented an adequate risk assessment methodology, incident response capabilities, and IT
        security related human resources controls. However, the Office of the Inspector General (OIG)
        recommended that the CareFirst and FEPOC Business Impact Analysis be updated on an annual
        basis in accordance with policies and procedures.




        www.opm.gov                                                                             www.usajobs.gov
Access Controls
We found that CareFirst and the FEPOC have implemented numerous physical controls to
prevent unauthorized access to its facilities, as well as logical controls to prevent unauthorized
access to its information systems. However, the 010 noted that the firewall configuration policy
and the password complexity requirements ofthe mainframe security software used at CareFirst
could be improved.

 Application Development and Change Control
FEPOC has established policies and procedures to ensure that modifications to application
software occur in a controlled environment. Such controls include: appropriate levels of
approval required prior to the migration ofprogram changes; various levels and types of system
testing in accordance with industry standards; and segregation of duties along organizational
lines. In addition, we did not review the change control methodology at CareFirst during this
 audit.

 System Software
 CareFirst has implemented a thorough system software change control methodology. This
 includes: a change management tool to control and track changes; multiple levels of approvals;
 and the implementation of policies and procedures for conducting emergency changes and
 limiting access to system software.

 Business Continuity
 We reviewed both CareFirst and FEPOC business continuity and disaster recovery plans and
 concluded that they contained many of the key elements suggested by relevant guidance and
 publications. We also determined that these documents are reviewed, updated, and tested on a
 periodic basis.

-- Application Controls
 CareFirst and the FEPOC have implemented many controls in their claims adjudication process
 to ensure that FEHBP claims are processed accurately. However, we recommended that
 CareFirst and the FEPOe implement several system modifications to ensure that their claims
 processing systems adjudicate FEHBP claims in a manner consistent with their OPM contract
 and other regulations.

 Health Insurance Portability and Accountability Act (HIP AA)
Nothing came to our attention that caused us to believe that CareFlrst and the FEPOC are not in
compliance with the various requirements of the HIPAA regulations. Furthermore, we did not
identify any weaknesses in CareFirst or the FEPOC' s H1PAA cost allocation methodology.




                                                11
                                                                 Contents 



Executive Summary ......................................................................................................................... .i 

I. 	 Introduction ................................................................................................................................ 1 

        Background ............................................................................................................................. 1 

        Objectives ...............................................................................................................................2 

        Scope ....................................................................................................................................... 2 

        Methodology ...........................................................................................................................3 

        Compliance with Laws and Regulations ............................................................................... .3 

II. Audit Findings and Recommendations ...................................................................................... .4 

        A. Entity-wide Security Program ......................................................................................... .4 

        B. Access Controls ................................................................................................................6 

        C. Application Development and Change Control ................................................................ 8 

        D. System Software ............................................................................................................... 8 

        E. Business 'Continuity ......................................................................................................... 9 

        F. Application Controls ...................................................................................................... 10 

        G. Health Insurance Portability and Accountability Act ..................................................... 19 

III. Major Contributors To This Report .........................................................................................21 

Appendix: BlueCross BlueShield Association's August 19,2008 response to the draft audit
report issued June 19, 2008.
                                     I. Introduction 

This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing     .
Federal Employees Health Benefits Program (FEHBP) claims at CareFirst BlueCross BlueShield
(CareFirst) and the BlueCross BlueShield Association's (BeBSA) Federal Employees Program
Operations Center (FEPOC).

The audit was conducted pursuant to Contract CS 1039; 5 U.S.c. Chapter 89; and 5 Code of
Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S. Office of
Personnel Management's (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

CareFirst headquarters is located in Owings Mills, Maryland. Employees responsible for
processing FEHBP (also, Federal Employees Program or FEP) local Plan claims for CareFirst
are primarily located in the PIan's facilities in Charleston, West Virginia and Owings MitIs,
Maryland. The West Virginia facility is operated by a subsidiary of CareFirst known as the
Capital Area Services Company, Inc. (CASCI).

BCBSA contracts with Service Benefit Plan Administrative Services Center, a subsidiary of
Group Hospitalization and Medical Services, Inc. (d/b/a CareFirst BCBS) to maintain the
information technology infrastructure of the FEPOC. FEPOC employees are primarily located at
CareFirst's Portals facility in Washington, D.C. The claims processing applications used by
CareFirst and the FEPOC are run on a mainframe located at CareFirst's Columbia, Maryland
data center.

This was the OIG's second audit of general and appJication controls at CareFirst and the FEPOC.
All audit recommendations from the previous audit were closed as of June 26, 2006.
CareFirstIFEPOC's compliance with the Health Insurance Portability and Accountability Act
(HIP AA) was also reviewed.

All personnel that worked with the auditors were particularly helpful and open to ideas and
suggestions. They viewed the audit as an opportunity to examine practices and to make changes
or improvements as necessary. Their positive attitude and helpfulness throughout the audit was
greatly appreciated.




                                                1

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability ofFEP data processed and maintained in CareFirstlFEPOC's computer systems.
These objectives were accomplished by reviewing the following areas:
  •   Entity-wide security;
  •   Access controls;
  •   Application development & change control;
  •   Segregation of duties;
  •   System software;
  •   Business continuity;
  •   Application controls specific to CareFirstlFEPOC's claims processing systems; and
  •   HIPAA compliance.

Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

 The OIG evaluated the confidentiality, integrity, and availability ofCareFirstIFEPOC's
 computer-based information systems used to process FEP claims, and fOlmd that there are
 opportunities for improvement in the information systems' internal controls. These areas are
 detailed in the "Audit Findings and Recommendations" section of this report.

   The -scope of this audit centered on the claims processing systems that process FEP claims for
.- CareFirst and the FEPOC, as well as the business structure and control environment in which
   they operate. These systems include the Flexx system owned and operated by CareFirst, and the
   FEP Express system owned by the BCBSA and operated in conjunction with CareFirst.
   CareFirst is an independent licensee of the BCBSA.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
CareFirstIFEPOC. Due to time constraints, we did not verify the reliability of the data used to
complete some of our audit steps, but we determined that it was adequate to achieve our audit
objectives. However, when our objective was to assess computer-generated data, we completed
audit steps necessary to obtain evidence that the data was valid and reliable.

The audit was performed atCareFirstlFEPOC offices in Washington, D.C., Columbia, Maryland,
Owings Mills, Maryland, and Charleston, West Virginia. These on-site activities were
performed in March and April 2008. The OIG completed additional audit work before and after
the on~site visits at OPM's office in Washington, D.C. The findings, recommendations, and
conclusions outlined in this report are based on the status of information system general and
application controls in place at CareFirstlFEPOC as of May 9, 2008.



                                                 2
Methodology
In conducting this review the OIG:
• 	 Gathered documentation and conducted interviews;
• 	 Reviewed CareFirstlFEPOC's business structure and environment;
• 	 Performed a risk assessment of CareFirstiFEPOC 's information systems environment and
    applications, and prepared an audit program based on the assessment and the Government
    Accountability Office's (GAO) Federal Information System Controls Audit Manual
    (FISCAM); and
• 	 Conducted various compliance tests to determine the extent to which established controls and
    procedures are functioning as intended. As appropriate, the auditors used judgmental
    sampling in completing their compliance testing.

Various laws, regulations, and industry standards were used as a guide to evaluating
CareFirstlFEPOC's control structure. This criteria includes, but is not limited to, the following
publications:
• 	 Office of Management and Budget (OMB) Circular A-130, Appendix III;
• 	 OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
• 	 Information Teclmology Governance Institute's (ITOI) CobiT: Control Objectives for
    Infonnation and Related Teclmology;
• 	 OPM Carrier Letter 2007-6, Omnibus Budget Reconciliation Act of 1990 (OBRA 90)
    Inpatient Prospective Payment System Pricer Program Usage;
• 	 GAO's Federal Information System Controls Audit Manual;
• 	 National Institute of Standards and Technology's Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
• 	 NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
• 	 NIST SP 800-30, Risk Management Guide for Information Technology Systems;
• 	 NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
• 	 NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
• 	 NIST SP 800-61, Computer Security Incident Handling Guide; and
• 	 Health Insurance Portability and Accountability Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, the OIG performed tests to determine whether CareFirstlFEPOC 's
practices were consistent with applicable standards. While generally compliant, with respect to
the items tested, CareFirstlFEPOC was not in complete compliance with all standards as
described in the "Audit Findings & Recommendations" section of this report.




                                                 3

                      II. Audit Findings and Recommendations

A. Entity-wide Security Pro2ram
   The entity-wide security component ofthis audit examined the policies and procedures that are
   the foundation ofCareFirstIFEPOC's overall IT security controls. The OIG evaluated the
   adequacy ofCareFirstlFEPOC's ability to manage risk, develop security policies, assign
   security-related responsibility, and monitor the effectiveness of various system-related controls.

   The QIG also reviewed various CareFirst human resources policies and procedures to evaluate
   the controls in place regarding various human resources functions such as hiring, terminations,
   transfers, conflicts of interest, training, and standards of conduct which are also followed by
   FEPOC.

   The policies and procedures that comprise CareFirstlFEPOC's entity-wide security program
   appear to provide an adequate foundation to protect the organization's information resources.
   However, the section below details one instance where CareFirst and FEPac policies related to
   risk management did not appear to be enforced.

   1. Business Impact Analysis

      As part of their overall risk management process, CareFirst and the FEPOC have conducted
      business impact analyses (BIA) to evaluate the degree that disruptions to various business
      processes would have on the organizations as a whole. However, both the FEPOC and the
      CareFirst BIAs are outdated.

          FEPOC
          The FEPOC BIA describes the potential financial and operational impacts that may result
          from a disruption of operations to FEPOC or CareFirst facilities. The BIA prioritizes the
          resumption of business processes, defines acceptable restoration times, and lists the
          resources required to support these processes.

          The FEPaC BIA was last updated in December 2006. The executive summary section of
          the BIA states that "The BIA should be updated at least annually. Changes in priorities,
          applications, systems, personnel and regulations can modifY or invalidate findings
          addressed in the BIA."

          CareFirst
          The CareFirst BIA process begins with the distribution ofBIA surveys to the managers of
          various applications and business functions. The surveys are used to gather infonnation
          related to acceptable downtimes and resources required to support the function. This
          information is then analyzed and incorporated into one overall BIA for CareFirst.




                                                    4

   The CareFirst BIA was last updated iri March 2005, based on survey results from
   September 2004. Although updated surveys were collected in May 2007, this
   information has not been incorporated into an updated BIA.

Both BIAs state that they are used as a basis for updating business continuity and disaster
recovery plans. Failure to properly maintain BIAs increases the risk that system
vulnerabilities and recovery priorities do not reflect the current environment, potentially
leading to gaps in disaster recovery and business continuity procedures.

Recommendation 1
We recommend that the FEPOC BIA be updated on an annual basis.

BCBSA Response:
'(The FEPOC reviews the RIA on an annual basis, and updates them every two to three
years. Changes to the critical and non-critical systems do not occur in that interval where
it would require updating the BIA annually. The FEPOC reviews and makes updates to
the systems or processes related to our business at least twice a year in conjunction with
the DR (Disaster Recover) exercises. If there are substantial changes to the systems, DR
and business continuity documentation changes are accommodated at other times to
ensure recoverability ofall systems in the event ofa disaster and during the next scheduled
Disaster Recovery (DR) exercise."

OIG Reply:
The FEPOC BIA itself states that it should be updated on an annual basis. If this requirement
does not accurately describe the current procedures, we recommend that the FEPOC address
this inconsistency.

Recommendation 2
We recommend that the CareFirst BIA be updated to include the results of the most recent
BIA surveys, and be updated on a periodic basis thereafter.

BCBSA Response:
HThe data compiled in 2007 and shared with the OIG auditors was an official BIA. At that
time, a new survey was completed and data was compiled. The business continuity and
disaster recovery requirements were updated to reflect the information collected in this
survey. All business continuity scenarios included in our plans were modified to reflect
this data and these requirements. In'addition; business continuity plans are
reviewed/updated by the business owners on a semi-annual basis and audited on a test
basis by corporate business continuity. CareFirst is currently undergoing a corporate
reorganization that is anticipated to be completed in 2009. At that time, new BIA surveys
will he completed and the dala compiled will be incorporated in the business continuity
and disaster recovery plans. "




                                             5

      OIG Reply:
      The CareFirst BIA states that the survey data is "intended to identify the time-sensitive
      business operations and the resources required to support recovery of those operations." The
      infonnation compiled from the surveys is then used to develop and improve the overall
      business continuity program, including the BIA itself. OIG auditors were not provided with
      evidence that the business continuity and disaster recovery requirements were updated to
      reflect the information collected in the 2007 survey. The CareFirst BIA that was provided
      for review indicates that it was last updated in March 2005. Ifthe CareFirst BIA was
      updated to include the compiled survey data in 2007, we recommend that, as part of the audit
      resolution process, CareFirst provide OPM's Center for Retirement and Insurance Services
      (cruS) with appropriate supporting documentation.

B. Access Controls
   Access controls are the policies, procedures, and techniques management has put in place to
   prevent or detect unauthorized physical or logical access to sensitive resources.

   The OIG examined the logical controls protecting CareFirstlFEPOC's network environment and
   claims processing-related applications. During this review, the following controls were
   documented:
   • 	 Procedures for authorizing, reviewing, and removing logical access to the infonnation
       systems used to process FEP claims;
   • 	 Adequate authentication controls for the CareFirst and FEPOC network domains; and
   • 	 Procedures for monitoring and filtering network activity.

     The OIG also examined the physical controls of CareFirstlFEPOC' s facilities in Owings Mills
     and Columbia, Maryland, Washington, D.C., and Charleston, West Virginia. Access to all of
     these facilities is controlled by an electronic access card system. Card readers are located on
  .- interior and exterior doors throughout the buildings, and the activity of each entrance is
     continuously monitored by various electronic and physical methods. The GIG also documented
     additional physical controls at the raised-floor area of the data center in Columbia, Maryland.

   The following sections detail the opportunities for improvement that were noted for logical and
   physical access controls.

   1. 	 Firewall Configuration Policy

      The IT Security team at CareFirst's Columbia, Maryland data center is responsible for
      configuring and maintaining the organization's firewal1s. However, CareFirst has not
      established a corporate policy detailing firewall configuration requirements.

      NIST SP 800-41, Guidelines on Firewalls and Firewall Policy, states that a firewall policy
      "Should dictate "how the firewal1 should handle applications traffic such as web, email, or
      teJnet. The policy should describe how the firewall is to be managed and updated."
      Furthermore, the NIST guidance states that periodic reviews of the firewa]]s should be
      conducted by comparing the actual firewall configuration to the expected configuration


                                                   6
  based on the defined policy. Without a fonnal policy, CareFirst is unable to perfonn such a
  review, increasing the risk that the firewall is configured in a manner that does not provide
  optimum security for the organization.

  Recommendation 3
  We recommend that CareFirst implement a firewall configuration policy, and begin using
  this policy as a baseline during periodic firewall reviews and audits. The policy should
  contain the elements suggested by NIST SP 800-41 or other appropriate guidance.

  BCBSA Response:
  "CareFirst agrees with this recommendation and has completed the implementation ofthe
  recommended firewall configuration policy as ofMay 15, 2008. The firewall
  configuration review/testing was completed during the period ofMay 22 through June 9,
  2008. "

   OIG Reply:
   As part of the audit resolution process, we recommend that CareFirstlFEPOC provide OPM's
   CRIS with appropriate supporting documentation detailing the steps taken to address this
   recommendation.

2. Password Complexity Requirement

   CareFirst uses Resource Access Control Facility (RACF) security software to govern access
   to mainframe applications. The password complexity requirements for RACF user IDs are
   defined by the "password syntax rules" outlined in the RACF SETR List report. The OIG
   reviewed CareFirst's SETR List and concluded that the RACF password complexity
   requirements are configured in a manner that is not consistent with CareFirst policy or
   industry acceptable best-practice.

   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Infonnation
   Technology Systems, provides guidelines that organizations should follow to ensure secure
   authentication to their infonnation systems. The current settings at CareFirst are not
   adequate and present CareFirstIFEPOC with an increased risk of unauthorized system access.

   CareFirst utilizes a third party program, "Control-SA" by BMC Software, Inc., to allow users
   to reset and update RACF passwords. We acknowledge that this program enforces password
   complexity in accordance with CareFirst and industry standards. However, the OIG auditors
   confinned that this control can be         ed



   Recommendation 4
   We recommend that CareFirst improve controls related to password requirements in a
   manner that prevents users from setting a RACF password that does not meet CareFirst
   policy and industry standards.


                                               7
      BCBSA Response:
      "The RACF system changes recommended would require significant effort in time and
      resources. As a mitigating control, CareFirst utilizes a third party program, 'Control-SA'
      by BMC Software, Inc. to allow users to reset and update RACFpasswords. As
      acknowledged by the Office ofthe Inspector General (OIG) auditors, this program
      enforces password complexity in accordance with CareFirst and industry standards.
      Therefore, CareFirst security controls are in compliance with standard industry practice
      and HIPAA security guidelines. "

      OIG Reply:
      The BCBSA response did not address the OIG's concern that n"~''''''''1TrI
      "Control-SA" can be bypassed
                We continue to re.commend that CareFirst improve controls related to password
      requirements in a manner that prevents users from setting a RACF password that does not
      meet CareFirst policy and industry standards.

C. Application Development and Change Control
   The oro evaluated the policies and procedures governing software development and change
   control of the FEPOC's FEP Express claims processing application. We did not review the
   change control methodology of Care First's Flexx claims processing system during this audit.

   The FEPOe has adopted a traditional system development life cycle (SDLC) methodology that
   incorporates the use of change requests managed by a project tracking tool. The FEPOC also
   uses a structured approval process for change requests. The following controls related to testing
   and approvals of software modifications were observed:
   • 	 Te·sting activities are controlled through fonnal test plans for major application 

       modifications; 

   • 	 Testing activities are conducted at different stages of the SDLC;
   • 	 Appropriate levels of approvaJ must be completed before the change is migrated into the
       production environment; and
   • 	 Procedures and controls are in place for emergency changes.

   The 010 also observed the following controls related to software libraries:
   • 	 The FEPOC has a software library management tool that provides sufficient control of
       application software;
   • 	 Application software is segregated among development, testing, and production regions; and
   • 	 There is a clear segregation of duties along organizational lines for all application software
       modifications.

D. System Software
   The system software that houses the Flexx and FEP Express claims processing applications is
   located at CareFirst's data center in Columbia, Maryland. The two applications are run on a



                                                   8
   single mainframe (separate logical partitions)'with the MVS operating systems and a shared
   RACF security database.

   CareFirst has implemented a thorough system software change control methodology. This
   process utilizes a change management tool to control and track changes, and involves multiple
   levels of approvals. The approval process includes representatives from both CareFirst as
   owners of the system software and the Flexx application, and the FEPOC as owners ofthe FEP
   Express application.

   It was also noted that CareFirst has implemented policies and procedures for conducting
   emergency changes and limiting access to system software to the appropriate individuals. The
   OIG reviewed several high level settings of CareFirst's RACF database, and did not identify any
   weaknesses other than the password complexity issue discussed in section B above.

E. Business Continuity
   The OIG reviewed CareFirst's and FEPOe's business continuity program to determine if (1)
   procedures were in place to protect information resources and minimize the risk of unplatmed
   interruptions, and (2) a plan existed to recover critical operations should interruptions occur.

   The FEPOC relies on the CareFirst business continuity program for: mainframe, UNIX and
   network support; maintenance of mainframe system software; maintenance of midrange
   hardware and systems software; performing batch runs; and maintenance of network
   connectivity to the claims and emollment systems located at the CareFirst data center. FEPOe's
   primary duty in a disaster recovery situation is to restore the application data needed for
   operations to continue.

   In an effort to assess CareFirst's business continuity capabilities, we evaluated documentation
   related to the Plan's procedures that ensure continuity of the FEP business unit, including:
   •   CareFirst's Disaster Recovery Plans;
   •   CareFirst's Mainframe Disaster Recovery Procedure; and
   •   FEPOC offsite data recovery procedures.

   The OIG found that each of these documents contain a majority of the key elements of a
   comprehensive service continuity program suggested by NIST SP 800-34, "Contingency
   Planning Guide for Information Technology Systems." Each of the documents are reviewed,
   updated, and tested on a regular basis. The results of the testing exercises document test,
   scenarios, test results, potential problems, and opportunities for improvement.

   CareFirst's business continuity methodology relies on BIA processes of both CareFirst and the
   FEPaC. This involves identifying the systems that are critical to continuing business operations,
   prioritizing these systems, and outlining the specific resources needed to support each system.
   However, based on the issue identified in Section A above, the disaster recovery documentation
   could contain gaps until the BIA for both CareFirst and FEPOC is updated.




                                                    9

F. Application Controls
   The 010 evaluated the input, processing, and output controls associated with CareFirstlFEPDC's
   claims processing systems.

   To validate the claims processing controls, a testing exercise was conducted on the Flexx and
   FEP Express claims processing applications. The exercise involved developing a test plan that
   included real life situations to present to CareFirstIFEPOC personnel in the fonn of institutional
   and professional claims. The test plan included expected results for each test case. Upon
   conclusion of the testing exercise, the expected results were compared with the actual results
   obtained during the exercise.

   Two sets of test c1aims were used during the exercise. The first set of claims was entered into
   the Flexx system at CareFirst's CASCI facility in Charleston, West Virginia. Where appropriate,
   the Flexx system routed these claims to FEP Express. The second set of claims was entered
   directly into the FEP Express system at the FEPOC's Portals facility in Washington, D.C.

   1. 	 Input Controls

      The DIG identified all possible sources of claims coming into CareFirst's Flexx claims
      processing system, as we]] as the mechanisms established by CareFirst to accept and process
      the claims. For paper claims received by mail, we learned that CareFirst:
       • 	 Segregates claims by fonn type;
       • 	 Uses scanning equipment that assigns a document control number on scanned documents;
           and
       • 	 Visually verifies that claims are scanned correctly.

       For claims transmitted electronically, CareFirst has adopted the following practices:
       • 	 The use of HIPAA compliant formats;
       • 	 The use of EC Map to verify that trading partners are using HIP AA fonnats; and
       • 	 The use of encryption when transmitting data.

      The OIG did not identify any weaknesses related to CareFirst's process for receiving FEP
      claims.

   2. 	 Processing Controls

      The results of the DIG's claims testing exercise indicated that several modifications should
      be made to CareFirstIFEPOC's claims processing methodology in order to produce results
      consistent with its contract with OPM and other regulations. The sections below document
      the unexpected results from the claims testing exercise. Although each section states whether
      the test claim was entered through the Flexx system or through FEP Express, this does not
      necessarily indicate which system should be modified to correct the problem.




                                                   10 

a. Omnibus Budget Reconciliation Act of 1993 (OBRA 93) Pricing

   Two OBRA 93 test claims were priced incorrectly.

   The OIG processed two OBRA 93 test claims (one entered into Flexx and one entered
   into FEP Express) with an assistant surgeon provider using an "AS" modifier. For the
   claim entered into Flexx, the system paid the assistant surgeon 100 percent of the Plan
   allowance of the primary surgeon. For the claim entered into FEP Express, the system
   paid the assistant surgeon 100 percent of the amount allowed by the Medicare fee
   schedule for the primary surgeon.

   Both test claims resulted in an overpayment to the provider, as the Center for Medicare
   Services Medicare Claims Processing Manual states that assistant surgeon claims should
   only be paid at 13.6 percent of the Medicare fee schedule.

   Recommendation 5
   We recommend that CareFirstlFEPOC implement the appropriate system modifications
   to ensure that OBRA 93 claims are priced appropriately.

   BCBSA Response:
   "OBRA '93 claims pricing is an FEP responsibility that is handled by Palmetto, an
   outside vendor. Due to the complex nature ofthe pricing ofclaims with procedure
   code modifier (AS,' these claims were excluded from the pricing requirements in the
   Vendor's contract. The necessary changes to the Vendor's contract have been made to
   allow for the pricing ofthese claims. Effective May 26, 2008, FEP claims with the
   procedure code modifier of 'AS' began to be priced in accordance to the Medicare Fee
   Schedule by Palmetto. Because the FEP Director's office was aware ofthe processing
   deficiency, periodic listings identifying these overpayments were sent to Plans to
   initiate refunds. Once this change was made, the final listings ofoverpayments caused
   by the lack ofthe 'AS' modifier reduction were sent to Plans to initiate recoveries."

   OIG Reply:
   As part of the audit resolution process, we recommend that CareFirstIFEPOC provide
   OPM's CRIS with appropriate supporting documentation indicating that the appropriate
   modifications have been made. We will test the functionality of the new controls during
   a follow-up review or as part ofthe next audit. We also recommend that all recov.eries of
   overpayments identified by the FEP Director's Office be reported to OPM's Insurance
   Services Program and coordinated through the audit resolution process.

h. Chiropractic Spinal Manipulations Accumulator

   In two test scenarios, chiropractic benefits related to spinal manipulations were 

   incorrectly applied. 





                                            11
The BlueCross BlueShield (BCBS) FEP benefit brochure states that subscribers with the
"standard" option are allowed 12 spinal manipulations per calendar year.

In the first test scenario, the OIG submitted two claims into the Flexx system with a total
of 16 spinal manipulations. One manipulation on the second claim was denied because it
was a duplicate of a manipulation on the first claim. Although the denied manipulation
was not paid, the system's accumulator counted this manipulation against the allowed
amount, and the subscriber only received benefits for 11 manipulations.

In the second test scenario, the OIG submitted two claims into the FEP Express system
with a total of 16 manipulations. One manipUlation on the second claim had the same
date and provider, but a different procedure code, as a manipulation on the first claim.
The system's accumulator only counted these two manipulations as one, and the
subscriber received benefits for 13 manipulations.

Recommendation 6
We recommend that CareFirstJFEPOC implement the appropriate system modifications
to ensure that chiropractic spinal manipulation benefits are applied correctly.

BCBSA Response:
"First, we would like to clarify that the accumulation o/the number o/manipulations
is a FEPExpressjunction. We conducted the same type o/testing performed by the
01G auditors in an effort to determine whether there are any issues with the manner in
which FEPExpress accumulates the number o/manipulations per year. We did not
receive the same results as the ones obtained by the DIG auditors. Attachment A
contains copies ofour test results using the FEP reporting requirements for this
service. "

OIG Reply:
After reviewing the test results provided by BeBSA, it appears that BCBSA did not
execute the testing scenario with the same methodology that the OIG used during the
audit. As stated above, the DIG submitted two claims into the FEP Express system with
a total of 16 manipulations. One manipulation on the second claim had the same date and
provider, but a different procedure code, as a manipulation on the first claim.

The OIG provided BCBSA with printouts from the original testing exercise in which this
problem was encountered. We suggest that BCBSA use this same methodology to
duplicate the problem, and continue to recommend that CareFirstlFEPOC implement the
appropriate system modifications to ensure that chiropractic spinal manipulation benefits
are applied correctly.




                                        12 

c. Chiropractic Office Visits and X-rays

   The BCBS FEP benefit structure allows for one chiropractic office visit and one set of x­
   rays each calendar year. However, in two test scenarios, benefits were paid for multiple
   office visits for one subscriber.

   In the first test scenario, the OIG submitted two claims for one subscriber into the Flexx
   system. The first claim contained procedure codes for a "new patient" office visit and a
   set of x-rays. The second claim used the same provider, and contained procedure codes
   for an "established patient" office visit and a set of x-rays. Both claims processed
   through the system and were paid without encountering any edits.

   In the second test scenario, the OIG submitted two claims for one subscriber into the FEP
   Express system. Both claims were for the same subscriber and provider, and both
   contained procedure codes for a "new patient" office visit and a set of x-rays. The
   system processed and paid both claims without triggering any system edits.

   The BCBS benefit brochure states that subscribers are entitled to "an initial office visit"
   and an "initial set of x-rays." The OIG acknowledges that the tenn "initial" could be
   interpreted to mean an initial office visit and set of x-rays from multiple providers.
   However, the actual benefit negotiated between OPM and the BCBSA covers one office
   visit and one set of x-rays per calendar year. The 2009 benefit brochure will be updated
   to more clearly define this benefit.

   Recommendation 7
   We recommend that CareFirstlFEPOC implement the appropriate system modifications
   to ensure that subscribers receive benefits for only one chiropractic office visit and one
   set of x-rays each calendar year.

   BCBSA Response:
   "The 2008 Blue Cross Blue Shield Service Benefit Brochure states on page 46, 'initial
   office visit' for a Chiropractor. During late 2007, we became aware o/the difficulty in
   the administration ofthis benefit due to the language used. Initially, an edit was put in
   the FEP system to limit the benefit to one visit. However, because the brochure reads
   initial visit,· we had to remove the edit as there was no definition provided to the
   members to define whether initial office visit meant per Chiropractor or per episode or
   per benefit period. As a result, we have made a requestfor a Contract modificaiion to
   change the word 'initial' to 'one'visit. This request was submitted with the 2009
   Benefit Changes/Clarifications. The results ofthe 2009 Benefit negotiations have not
   yet been published. Once this information is made available, we will provide an update
   to our response. "




                                            13 

   OIG Reply:
   After the contract is modified to specify that "one" chiropractic office visit is allowed per
   year, we recommend that CareFirst'FEPOC reinstate the edit to ensure that the system
   appropriately enforces this element of the contract.

d. Chiropractic Diagnosis

   A test chum was processed where benefits were paid for chiropractic spinal
   manipulations associated with an inappropriate diagnosis.

   The OIG submitted a test claim into the Flexx system with a procedure code for a spinal
   manipulation where the subscriber had a diagnosis of chicken pox. The claim was
   processed through the system and was paid without encountering any system edits.

   This system weakness increases the risk that benefits are being paid for chiropractic
   procedures associated with a diagnosis"that may not warrant such treatment.

   Recommendation 8
   We recommend that CareFirstIFEPOC implement the appropriate system modifications
   to ensure that a subscriber's diagnosis is evaluated for appropriateness before chiropractic
   benefits are paid.

   BCBSA Response:
    IIMedical Edits are the responsibility ofthe local Plans. Please reference the
   Attachment B for a copyofFEP Administrative Manual Volume I, Chapter 15 -107
   for a description ofthis requirement. It would be a duplication ofefforts and costly to
   the Program for FEPExpress to contain the various medical policies for each specific
 "·J!lan as well as requiring numerous Plan specific edits.

   CareFirst will work with the FEP Director's Office to re-evaluate its medical edits in
   an effort to determine what local system edits may require enhancements in order to
   ensure that these types ofsituations are pendedfor review ofthe medical
   appropriateness ofthe services prior 10 payment. We estimate that this evaluation will
   be completed by the end o/first quarter 2009."

   OIG Reply:
   As part of the audit resolution process, we recommend that CareFirstIFEPOC provide
   OPM's CRIS with appropriate supporting documentation indicating that the system's
   medical edits have been enhanced to ensure that a subscriber's diagnosis is evaluated for
   appropriateness before chiropractic benefits are paid.

e. Multiple Procedure Instances

   Two test claims were processed and paid for a subscriber receiving the same surgical
   procedure twice in one day from different providers.


                                            14
Both claims were entered into the FEP Express system (in separate batches), and were
identical with the exception of the provider data. The system processed and paid both
claims, even though they were for a vasectomy. It is highly unlikely in the real world ,
that apatient would have two vasectomies performed on the same day by different
providers.

This test scenario was also entered into the Flexx system, which appropriately suspended
the claims as "suspected duplicates." The OIG believes that similar edits should be
incorporated into FEP Express to support the BCBS Plans that may not have suspected
duplicate edits in their local systems, as well as for Plans that enter claims directly into
FEP Express (as CareFirst does for overseas claims).

Recommendation 9
We recommend that CareFirstlFEPOC incorporate the appropriate edits into FEP Express
that will allow the system to identify and suspend claims that are identical to previously
processed claims in all fields except for the provider.

We acknowledge the fact that, for certain procedures, it may be possible to have the same
type of service rendered on the same day by different providers. The system could be
programmed to selectively apply the new edit based on the procedure in question. In
order to avoid hindering the efficiency of the edit process, the edit could be designed to
bypass entire classes of procedures where multiple same-day instances of a procedure are
likely to occur (e.g., office visits, lab tests, dental procedures).

BCBSA Response:
"There are surgical procedures that are normally performed one time; however, we
have encountered a number ofexceptions with these procedures. Sometiines, only a
partial procedure is performed or the first procedure was unsuccessful and it must be
performed again. An example ofsuch a procedure would be a vasectomy. Ifthe
                               ,I
procedure was unsuccessful, can be re-performed at the patient's request.

The example used by the OIG auditors was a vasectomy performed on the same day by
two different providers. Because the example included two different providers, the
claim did not defer on FEPExpress as a possible duplicate. Different providers are not
part o/the FEP System Duplicate Criteria. However, the question with the two
vasectomies is the medical appropriateness o/two doctors performing this procedure
on the same day, on the same member. Since this is not accepted medical practice
(Local Medical Policy) for the CareFirst service area, the second claim correctly
deferred on the FLEXX System. This is the correct process as Medical Edits are
housed at the local Plans. However, the claim paid on FEPExpress as there are no
Medical Edits on FEPExpress.

I/the OIG auditors can provide FEP with a listing ofthe procedures that should be
included in a new edit that is designed to limit members to one surgical service per
lifetime, we will evaluate the/easibility oflimiting these services. At this time, we


                                         15 

     cannot determine the types ofsurgical procedures that we should limit members to one
     per lifetime. Therefore, no changes will be made to the FEPExpress at this time."

     OIG Reply:
     This test claim was deferred by the local Flexx system as a "suspected duplicate," not as
     a medical policy edit. This indicates that the capability exists to create a system edit to
     identifY and suspend claims that are identical to prev:iously processed claims in all fields
     except for the provider. We continue to recommend that this edit be implemented in FEP
     Express in order support the BCBS Plans that may not have suspected duplicate edits in
     their local systems, as well as for Plans that enter claims directly into FEP Express (as
     CareFirst does for overseas claims).

f.   Procedure Bundling

     A test claim containing multiple laboratory procedures was not appropriately bundled.

     The DIG submitted a test claim in the FEP Express system that contained nine laboratory
     procedures that were expected to be bundled into a single procedure (Basic Metabolic
     Panel). The test claim also contained the procedure code for a pre-bundled Basic
     Metabolic Panel. The system did not bundle the nine separate procedures, and did not
     deny the Basic Metabolic Panel as a duplicate.

     A similar test claim was also entered into the Flexx system, which appropriately bundled
     the nine procedures and denied the Basic Metabolic Panel as a duplicate. The DIG
     believes that similar edits should be incorporated into FEP Express to support the BCBS
     Plans that may not have procedure bundling edits in their local systems, as well as for
     Plans that enter claims directly into FEP Express (as CareFirst does for overseas claims).

     'Recommendation 10
     We recommend that CareFirstIFEPOC implement the appropriate modifications to FEP
     Express to ensure that the system can appropriately process claims where procedure
     bundling is required.

     BCBSA Response:
     "The bundling oflike medical services is based upon local medical policies and is
     considered a Medical Edit that is handled at the Plan level. The test claims processed
     through FLEXX were appropriately bundled by ClaimCheck which performs various
     medical editslbundlingfor the Plan. The auditors also submitted the unbundled claims
     directly to FEPExpress, which appropriately did not bundle these services as the
     bundling process is not maintained on FEPExpress. As a result, no changes are
     required to the FEPExpress. "

     OIG Reply:
     The BCBSA response indicates that the bundling of similar medical services is based
     upon local medical policies. This statement is incorrect, as the methodology for bundling


                                              '16 

   of similar medical services is defined by the Current Procedural Terminology manual
   issued by the American Medical Association on an annual basis. In addition, the BCBSA
   response did not address the fact that not all BCBS Plans have procedure bundling
   medical edits implemented in their local systems, and some Plans enter claims directly,
   into FEP Express (as CareFirst does for overseas claims). The OIG continues to believe
   that these vulnerabilities warrant modifications to FEP Express.

g. Procedure to Diagnosis Inconsistency

   A test claim was processed where benefits were paid for a procedure associated with an
   inappropriate diagnosis.

   The OIG entered a test claim into the FEP Express system with a procedure code for a
   transurethral incision of the prostate and a diagnosis of an ankle fracture. The system
   processed and paid the claim without triggering any edits.

   This system weakness increases the risk that benefits are being paid for procedures
   associated with a diagnosis that may not warrant such treatment.

   Recommendation 11
   We recommend that CareFirstlFEPOC implement the appropriate system modifications
   to ensure that a subscriber's diagnosis is evaluated for appropriateness before benefits are
   paid .

  .BCBSA Response:
   "The determining of whether the services are related to the diagnosis requires Medical
   Edits to defer the claimfor review. Medical Edits are maintained at the Plan level. The
   test claim in question processed correctly in the local Plan system. However, the
   auditors also processed the test claim directly in FEPExpress, which appropriately did
   not edit the claim for diagnosis/procedure compatibility since such edits reside in the
   local system. Therefore, no changes are required to FEPExpress."

   OIG Reply:
   The BCBSA response indicates that medical edits are handled at the Plan level.
   However, the response did not address the fact that not all BCBS Plans have
   diagnosis/procedure compatibility edits in their local systems, and some Plans enter
   claims directly into FEP Express (as CareFirst does for overseas claims). The 010
   continues to believe that these vulnerabilities warrant modifications to FEP Express.

h. Non-participating Provider Pricing

   A non-participating (non-par) provider was paid an amount significantly greater than the
   amount allowed by the Medicare fee schedule.




                                            17
     The OIG submitted a test claim into the FEP Express system for an office visit with a
     diagnosis of chicken pox for a Medicare subscriber. Although the Medicare fee schedule
     allows $38.50 for an office visit, the system paid the provider the full $6,000 of submitted
     charges.

     The non-participating provider allowance (NP A) is calculated as the greater of the
     Medicare fee schedule or the Plan's pricing allowance (PPA). In this test case the
     processor entered a PPA equal to the submitted charges of $6,000. We would expect the
     system to suspend the claim after detecting the large variance between the NPA and the
     Medicare fee schedule.

     This system weakness increases the risk that non-par providers are being significantly
     overpaid when they inadvertently or fraudulently submit charges well in excess of the
     Medicare fee schedule amount.

     Recommendation 12
     We recommend that CareFirstlFEPOC implement the appropriate system modifications
     to ensure that non-par provider claims are suspended for review when there is a large
     variance between the NP A and the Medicare fee schedule. CareFirsu'FEPOC will need to
     determine an acceptable variance above which the claims should be suspended.

     BCBSA Response:
     "Non-Par professional claims are priced by FEPExpress. We are currently conducting
     a study to determine the specifications required to implement an edit that would defer
     any non-par priced claim that exceeds 40% ofthe Medicare Fee Schedule. The results
     ofthe study are expected during thefourth quarter 2008 with implementation ofthe
     recommendation in 2009. "

     DIG Reply:
     As part of the audit resolution process, we recommend that CareFirsu'FEPOC provide
     OPM's CRIS with appropriate supporting documentation indicating the steps taken to
     address this recommendation. We will test the functionality of the new controls during a
     follow-up review or as part of the next audit.

i.   OBRA 90 Transfer

     An OBRA 90 test claim was incorrectly processed as a transfer claim.

     The DIG submitted an OBRA 90 test claim into FEP Express that included a discharge
     status of '43,' and the system processed and paid this claim as a transfer. However,OPM
     Carrier Letter 2007-6, "OBRA 90 IPPS PRICER Program Usage," states that only claims
     with a discharge status of '02' should be processed as transfers.

     The OIG suspects that the BCBSA's FEP Express system has not been updated to 

     incorporate the discharge status codes outlined in the Carrier Letter. As a result, 



                                             18
          CareFirstlFEPOC has incorrectly pric~cl all OBRA 90 claims with a status code of '43'
          that have been processed after February 28,2007, the date the Carrier Letter was issued.

          Recommendation 13
          We recommend that CareFirstIFEPOC implement the necessary system modifications to
          ensure compliance with the requirements ofOPM Carrier letter 2007-6.

          BCBSA Response:
          {'OBRA '90 Pricing is a function ofFEPExpress. When the system changes to comply
          with OPM Carrier letter 2007-6 was implemented, patient status {43' was incorrectly
          included in the transfer application in the OBRA '90 Pricer. As a result, these claims
          may have been underpaid. We were aware ofthis issue from previous audits ofother
          Plans. The system correction to limit the OBRA '90 Transfer pricing to patient status
          '02' will be implemented on October 18,2008."

          OIG Reply:
          As part of the audit resolution process, we recommend that CareFirstlFEPOC provide
          OPM's CRIS with appropriate supporting documentation indicating the steps taken to
          address this recommendation. We will evaluate the effectiveness of the planned
          October 18, 2008 update as part of a follow-up review or during the next audit. .

   3. 	 Output Controls

      CareFirst has adopted adequate policies and practices to provide guidance for the generation
      and distribution of system output related to the claims processing applications within the
      scope of this audit. These include activities such as:
      • 	 The use of a "totals sheet" to keep track of all output as well as stuffed envelopes;
      • 	 The use ofa Bh210g to keep track of batches that were sent to their bulk mail distributor;
          and
      • 	 The use of a recreated documents sheet to keep track of any damaged output.

      The OIG did not identify any weaknesses related to CareFirst's procedures for controlling
      system output for FEP claim transactions.

G. Health Insurance Portability and Accountability Act
   The OIG reviewed CareFirstIFEPOC's efforts to maintain compliance with various HIPAA
   regulations.

   The FEPOC primarily relies on CareFirst for compliance efforts related to the HIP AA security
   and privacy rules. CareFirst has implemented a series of IT security policies and procedures that
   adequately address the requirements of the HIPAA security rule. In addition, CareFirst has
   developed a privacy policies and procedures manual that directly addresses all requirements of
   the HIP AA privacy rule.



                                                  19
The OIG reviewed CareFirst's and the FEPOC's compliance with the HIPAA standards for
electronic transactions, and determined that both organizations adhere to the requirements of this
rule.

The 010 also reviewed CareFirst's and the FEPOC's methodology for allocating HWAA related
costs (budgeted and actual) to its various lines of business for 2003 through 2007. The GIG did
not identify any weaknesses in CareFirst's HIPAA cost allocation methodology.

Finally, the 0IG documented that both the FEPOC and CareFirst have adopted the National
Provider Identifier as the standard unique health identifier for health care providers, as required
by HIPAA.




                                                 20 

                    III. Major Contributors to This Report 

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, lriformation Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                   Group Chief
•                      Senior Team Leader
•                     Auditor-In-Charge
•                       IT Auditor
•




                                              21 

                                     Appendix



  August 19, 2008


                  Chief
  Chief, Information Systems Audits Group
  U. S. Office of Personnel Management
  Office of the Inspector General
  1900 E Street, N.W., Room 6400
  Washington, D.C. 20415


  Reference: 	 OPM DRAFT AUDIT REPORT
               FEP Operations/CareFirst Maryland
               Audit Report Number 1A-10-92-08-021
               (Dated and Received 06/19/08)

  Dear

  This is in response to the above-referenced U.S.'Office of Personnel
  Management (OPM) Draft Audit Report covering the Federal Employees'
  Health Benefits Program (FEHBP) Audit of Information Systems General and
  Application Controls for the FEP Operations Center (FEPOC) and the CareFirst
  DC Plan's interface with the FEP claims· processing system, access and
  security controls. The response to this report is divided into two sections. The
  fir.st section is the response to the report and the second section is requested
_wording changes that Plan staff feels will better characterize their
  organizational environment (Attachment C). Our comments concerning the
  recommendations in the report are as follows:

  A.      Entity-wide Security Program

       1. Business Impact Analysis (BIA)

         Both BIAs state that they are used as a basis for updating business
         continuity and disaster recovery plans. Failure to properly maintain BIAs
         increases the risk that system vulnerabilities and recovery priorities do
         not reflect the current environment, potentially leading to gaps in disaster
         recovery and business continuity procedures.

         elG Recommendation 1 

         We recommend that FEPOC BIA be updated on an annual basis. 

        Response to Recommendation 1

       The FEPOC reviews the BIA on an annual basis, and updates them every
       two to three years. Changes to the critical and non-critical systems do not
       occur in that interval where it would require updating the BIA annually.
       The FEPOC reviews and makes updates to the systems or processes
       related to our business at least twice a year in conjunction with the DR
       (Disaster Recover) exercises. If there are substantial changes to the
       systems, DR and business continuity documentation changes are
       accommodated at other times to ensure recoverability of all systems in the
       event of a disaster and during the next scheduled Disaster Recovery (DR)
       exercise.

        OIG Recommendation 2
        We recommend that the CareFirst BIA be updated to include the results of
        the most recent BIA surveys, and be updated on a periodic basis
        thereafter.

        Response to Recommendation 2

        The data compiled in 2007 and shared with the DIG auditors was an
        official BIA. At that time, a new survey was completed and data was
        compiled. The business continuity and disaster recovery requirements
        were updated to reflect the information collected in this survey. All
        business continuity scenarios included in our plans were modified to
        reflect this data and these requirements. In addition, business continuity
        plans are reviewed/updated by the business owners on a semi-annual
        basis and audited on a test basis by corporate business continuity.
        CareFirst is currently undergoing a corporate reorganization that is
        anticipated to be completed in 2009. At that time, new BIA surveys will be
        completed and the data compiled will be incorporated in the business
        continuity and disaster recovery plans.

B.      Access Controls

     1. Firewall Configuration Policy

        The IT Security team at CareFirst's Columbia, Maryland data center is
        responsible for configuring and maintaining the organization's firewalls.
        However, CareFirst has not established a corporate policy detailing
        firewall configuration requirements.

        NIST SP 800-41, Guidelines on Firewalls and Firewall Policy, states that a
        firewall policy should dictate " ... how the firewall should handle
        applications traffic such as web, email, or telnet. The policy should
        describe how the firewall is to be managed and updated."
  OIG Recommendation 3
  We recommend that CareFirst implement a firewall configuration policy,
  and begin using this policy as a baseline during periodic firewall reviews
  and audits. The policy should contain the elements suggested by NIST
  SP 800-41 or other appropriate guidance.

  Response to Recommendation 3

  Care First agrees with this recommendation and has completed the
  implementation of the recommended firewall configuration policy as of
  May 15, 2008. The firewall configuration review/testing was complet!3d
  during the period of May 22 through June 9, 2008.

2. Password Complexity

  CareFirst utilizes a third party program, "Control-SA" by BMC Software,
  Inc., to allow users to reset and update RACF passwords. We
  acknowledge that this program enforces password complexity in
  accordance with CareFirst and industry standards. However, the DIG
  auditors confirmed that this control can be bypassed by • • • • • • •




  OIG Recommendation 4

  We recommend that CareFirst improve controls related to password
  requirements in a manner that prevents users from setting a RACF'
  password that does not meet CareFirst policy and industry standards.

  Response to Recommendation 4

  The RACF system changes recommended would require significant effort
  in time and resources. As a mitigating control, Care First utilizes a third
  party program, "Control-SA" by BMC Software, Inc. to allow users to reset
  and update RACF passwords. As acknowledged by the Office of the
  Inspector General (DIG) auditors, this program enforces password
  complexity in accordance with Care First and industry standards.
  Therefore, CareFirst security controls are in compliance with standard
  industry practice and HIPAA security guidelines.
C.     Application Controls

     3. Processing Controls

     a. OBRA '93 Pricing

       The OIG processed two OBRA '93 test claims (one entered into Flexx and
       one entered into FEP Express) with an assistant surgeon provider using
       an "AS" modifier. For the claim entered into Flexx, the system paid the
       assistant surgeon 100% of the Plan allowance or the primary surgeon.
       For the claim entered into FEPExpress, the system paid the assistant
       surgeon 100% of the amount allowed by the Medicare fee schedule for the
       primary surgeon.

       OlG Recommendation 5

       We recommend that CareFirstlFEPOC implement the appropriate system
       modifications to ensure that OBRA '93 claims are priced appropriately.

       Response to Recommendation 5

       OBRA '93 claims pricing is an FEP responsibility that is handled by
       Palmetto, an outside vendor. Due to the complex nature of the pricing of
       claims with procedure code modifier "AS," these claims were excluded
       from the pricing requirements in the Vendor's contract. The necessary
       changes to the Vendor's contract have been made to allow for the pricing
       of these claims. Effective May 26,2008, FEP claims with the procedure
       code modifier of "AS" began to be priced in accordance to the,Medicare
       Fee Schedule by Palmetto. Because the FEP Director's office was aware
       of the processing deficiency, periodic listings identifying these
       overpayments were sent to Plans to initiate refunds. Once this change
       was made, the final listings of overpayments caused by the lack of the
       "AS" modifier reduction were sent to Plans to initiate recoveries.
b. Chiropractic Spinal Manipulations Accumulator

  In two test scenarios, chiropractic benefits related to spinal manipulations
  were incorrectly applied. In the first test scenario, the DIG submitted two
  claims into the Flexx system with a total of 16 spinal manipulations. One
  manipulation on the second claim denied because it was a duplicate of a
  manipulation on the first claim. Although the denied manipulation was not
  paid, the system's accumulator counted this manipulation against the
  allowed amount, and the subscriber only received benefits for 11
  manipulations.

  In the second test scenario, the DIG submitted two claims into the FEP
  Express system with a total of 16 manipulations. One manipulation on the
  second claim had the same date and provider, but a different procedure
  code, as a manipulation on the first claim. The system's accumulator only
  counted thes~ two manipulations as one, and the subscriber received
  benefits for 13 manipulations.

  DIG Recommendation 6

  We recommend that CareFirstlFEPOC implement the appropriate system
  modifications to ensure that chiropractic spinal manipulation benefits are
  applied correctly.

   Response to Recommendation 6

  First, we would like to clarify that the accumulation of the number of
  manipulations is a FEPExpress function. We conducted the same type of
  testing performed by the DIG auditors in an effort to determine whether
  there are any issues with the manner in which FEPExpress accumulates
  the number of manipulations per year. We did not receive the same
  results as the ones obtained by the DIG auditors. Attachment A contains
  copies of our test results using the FEP reporting requirements for this
  service.
   We could not get the system to pay more than 12 manipulations using the
   normal processing method. The system deferred the claim with the 13th
   manipulation (Note that this deferral is not over-rideable). However, we do
   have a process in our system in which more than the 12 manipulations ,
   can be paid if the services are submitted as Plan Approved which is used
   for our Case Management services. For Case Management services,
   members are allowed to exceed the established maximums, if it is
   deemed as a cost effective treatment method to improved or maintain the
   member's health. Our review indicates that the FEP system is correctly
   accumulating these services and no changes are required at this time.

c. Chiropractic Office Visits and X-rays

   The BCBS FEP benefit structure allows for one chiropractic office visit and
   one set of x-rays each calendar year. However, in two test scenarios,
   benefits were paid for multiple office visits for one subscriber.

   OIG Recommendation 7
   We recommend that CareFirstlFEPOC implement the appropriate system
   modifications to ensure that subscribers receive benefits for only one
   chiropractic office visit and one set of x-rays each calendar year.

   Response to Recommendation 7

   The 2008 Blue Cross Blue Shield Service Benefit Brochure states on page
   46, "initial office visit" for a Chiropractor. During late 2007, we became
   aware of the difficulty in the administration of this benefit due to the
   language used. Initially, an edit was put in the FEP system to limit the
   benefit to one visit. However, because the brochure reads initial visit, we
   had to remove the edit as there was no definition provided to the members
   to define whether initial office visit meant per Chiropractor or per episode
   or per benefit period. As a result, we have made a request for a Contract
   modification to change the word "initial" to "one" visit. This request was
   submitted with the 2009 Benefit Changes/Clarifications. The results of the
   2009 Benefit negotiations have not yet been published. Once this
   information is made available, we will provide an update to our response.
d. Chiropractic Diagnosis

  A test claim was processed where benefits were paid for chiropractic
  spinal manipulations associated with an inappropriate diagnosis.

   OIG Recommendation 8

  We recommend that CareFirstiFEPOC implement the appropriate system
  modifications to ensure that a subscriber's diagnosis is evaluated for
  appropriateness before chiropractic benefits are paid.

   Response to Recommendation 8

   Medical Edits are the responsibility of the local Plans. Please reference
   the Attachment B for a copy of FEP Administrative Manual Volume I,
   Chapter 15 - 107 for a description of this requirement. It would be a
   duplication of efforts and costly to the Program for FEPExpress to contain
   the various medical policies for each specific Plan as well as requiring
   numerous Plan specific edits ..

   CareFirst will work with the FEP Director's Office to re-evaluate its medical
   edits in an effort to determine what local system edits may require
   enhancements in order to ensure that these types of situations are pended
   for review of the medical appropriateness of the services prior to payment.
   We estimate that this evaluation will be completed by the end of first
   quarter 2009.

e. Multiple Procedure Instances

   Two test claims were processed and paid for a subscriber receiving the
   same surgical procedure twice in one day from different providers.

   OIG Recommendation 9

   We recommend that CareFirstiFEPOC incorporate the appropriate edits
   into FE? Express that will allow the system to identify and suspend claims
   that are identical to previously processed claims in all fields except for the
   provider.
  We acknowledge the fact th'at, for certain procedures, it may be possible
  to have the same type of service rendered on the same day by different
  providers. The system could be programmed to selectively apply the new
  edit based on the procedure in question. In order to avoid hindering the,
  efficiency of the edit process, the edit could be designed to bypass entire
  classes of procedures where multiple same-day instances of a procedure
  are likely to occur (e.g., office visits, lab tests, dental procedures).

   Response to Recommendation 9

    There are surgical procedures that are normally performed one time;
  , however, we have encountered a number of exceptions with these
    procedures. Sometimes, only a partial procedure is performed or the first
    procedure was unsuccessful and it must be performed again. An example
    of such a procedure would be a vasectomy. If the procedure was
    unsuccessful, it can be re-performed at the patient's request.

   The example used by the OIG auditors was a vasectomy performed on
   the same day by two different providers. Because the example included
   two different providers, the claim did not defer on FEPExpress as a
   possible duplicate. Different providers are not part of the FEP System
   Duplicate Criteria. However, the question with the two vasectomies is the
   medical appropriateness of two doctors performing this procedure on the
   same day, on the same member. Since this is not accepted medical
   practice (Local Medical Policy) for the CareFirst service area, the second
   claim correctly deferred on the FLEXX System. This is the correct
   process as Medical Edits are housed at the local Plans. However, the
   claim paid on FEPExpress as there are no Medical Edits on FEPExpress.

   If the OIG auditors can provide FEP with a listing of the procedures that
   should be included in a new edit that is designed to limit members to one
   surgical service per lifetime; we will evaluate the feasibility of limiting these
   services. At this time, we cannot determine the types of surgical
   procedures that we should limit members to one per lifetime. Therefore,
   no changes will be made to the FEPExpress at this time.

f. Procedure Bundling

   A test claim containing multiple laboratory procedures was not 

   appropriately bundled. 

  DIG Recommendation 10

  We recommend that CareFirstlFEPOC implement the appropriate
  modifications to FEP Express to ensure that the system can appropriately
  process claims where procedure bundling is required.

  Response to Recommendation 10

  The bundling of like medical services is based upon local medical policies
  and is considered a Medical Edit that is handled at the Plan level. The test
  claims processed through FLEXX were appropriately bundled by
  ClaimCheck which performs various medical edits/bundling for the Plan.
  The auditors also submitted the unbundled claims directly to FEPExpress,
  which appropriately did not bundle these services as the bundling process
  is not maintain~d on FEPExpress. As a result, no changes are required to
  the FEPExpress.

g. Procedure to Diagnosis Inconsistency

  A test claim was processed where benefits were paid for a procedure
  associated with an inappropriate diagnosis. The OIG entered a test claim
  into the FEPExpress system with a procedure code for a transurethral
  incision of the prostate and a diagnosis of an ankle fracture. The system
  processed and paid the claim without triggering any edits.

  DIG Recommendation 11

  We recommend that CareFirstlFEPOC implement the appropriate system
  modifications to ensure that a subscriber's diagnosis is evaluated for
  appropriateness before benefits are paid.

   Response to Recommendation 11

  The determining of whether the services are related to the diagnosis
  requires Medical Edits to defer the claim for review. Medical Edits are
  maintained at the Plan level. The test claim in question processed
  correctly in the local Plan system. However, the auditors also processed
  the test claim directly in FEPExpress, which appropriately did not edit the
  claim for diagnosis/procedure compatibility since such edits reside in the
  local system. Therefore, no changes are required to FEPExpress.
h. Non-Participating Provider Pricing

   A non-participating (non-par) provider was paid an amount significantly
   greater than the amount allowed by the Medicare fee schedule.

   OIG Recommendation 12

   We recommend that CareFirstlFEPOC implement the appropriate system
   modifications to ensure that non-par provider claims are suspended for
   review when there is a large variance between the NPA and the Medicare
   fee schedule. CareFirstlFEPOC will need to determine an acceptable
   variance above which the claims should be suspended.

   Response to Recommendation        12
   Non-Par professional claims are priced by FEPExpress. We are currently
   conducting a study to determine the specifications required to implement
   an edit that would defer any non-par priced claim that exceeds 40% of the
   Medicare Fee Schedule. The results of the study are expected during the
   fourth quarter 2008 with implementation of the recommendation in 2009.

i. OBRA '90 Transfer

   An OBRA '90 test claim was incorrectly processed as a transfer claim. 

   The OIG submitted an OBRA '90 test claim into FEP Express that 

   included a discharge status of '43', and the system processed and paid 

   this claim as a transfer. However, OPM Carrier Letter 2007-6, 

   "OBRA '90 IPPS PRICER Program Usage," states that only claims with a 

   discharge status of '02' should be processed as transfers. 


   OIG Recommendation 13

   We recommend that CareFirstlFEPOC implement the necessary system
   modifications to ensure compliance with the requirements of OPM Carrier
   letter 2007-6.
        Response to Recommendation 13

        OBRA '90 Pricing is a function of FEPExpress. When the system changes
        to comply with OPM Carrier letter 2007-6 was implemented, patient status
        "43" was incorrectly included in the transfer application in the OBRA '90
        Pricer. As a result, these claims may have been underpaid. We were
        aware of this issue from previous audits of other Plans. The system
        correction to limit the OBRA'90 Transfer pricing to patient status "02" will
        be implemented on October 18, 2008.

We appreciate the opportunity to provide our response to this Draft Audit Report
and would request that our comments be included in their entirety as part of the
Final Audit Report.

Sincerely,



Robert C. McMillan,
Executive Director
Program Integrity
Financial Services, Audit and Compliance

RM/jb


Attachments


cc: 	   Shirley Patterson, OPM
        Gentry Israel, Director, CareFirst BCBS
        Danita Andrews, FEP
